FAA FULFILLED MOST ARRA REQUIREMENTS IN
       AWARDING AIRPORT GRANTS
         Federal Aviation Administration
          Report Number: AV-2011-053
         Date Issued: February 17, 2011
           U.S. Department of
                                                                 Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: FAA Fulfilled Most ARRA                                              Date:   February 17, 2011
           Requirements in Awarding Airport Grants
           Federal Aviation Administration
           Report Number AV-2011-053

  From:    Jeffrey B. Guzzetti                                                      Reply to
                                                                                    Attn. of:   JA-10
           Assistant Inspector General
             for Aviation and Special Program Audits

    To:    FAA Administrator

           On February 17, 2009, the President signed into law the American Recovery and
           Reinvestment Act (ARRA),1 designating $1.1 billion for the Federal Aviation
           Administration (FAA) to invest in Airport Improvement Program (AIP) projects.
           These funds were intended for airport projects that could achieve several key
           goals, including investing in transportation infrastructure to provide long-term
           economic benefits, create jobs, and promote economic recovery. ARRA
           established tight timeframes for distributing and expending funds and emphasized
           preference for projects that could be completed in 2 years.

           In August 2009, we issued an advisory to the Office of the Secretary outlining our
           concerns with FAA’s process for awarding ARRA grants.2 We questioned the
           economic merit of some lower scoring projects and highlighted several ARRA
           recipients with grant management problems identified in prior single audit
           reports.3 Based on these preliminary findings, we initiated this audit to determine
           the extent to which FAA’s process for awarding ARRA grants complied with
           ARRA requirements and other associated guidance.4 We conducted this audit
           from September 2009 through December 2010 in accordance with government


           1
               American Recovery and Reinvestment Act of 2009, Pub. L. No. 111–5 (2009).
           2
               OIG Advisory Number AA-2009-003, “FAA’s Process for Awarding ARRA Airport Improvement Program Grants,”
               August 6, 2009. OIG reports are available on our website: www.oig.dot.gov.
           3
               Single audit is a mechanism relied upon by Executive Branch agencies to oversee financial compliance and grant
               assurances.
           4
               For the purpose of this report, we define “requirements” as a collective term to refer to ARRA statutory
               requirements, Presidential direction, and Office of Management and Budget (OMB) and FAA guidance related to
               ARRA implementation.
                                                                                                                           2


auditing standards prescribed by the Comptroller General of the United States.5
Exhibit A details our scope and methodology.

RESULTS IN BRIEF
FAA’s process for awarding $1.1 billion in AIP grants complied with five key
ARRA requirements but fell short on two others—being fully transparent and
optimizing economic activity.6 As shown in table 1, FAA used its existing project
selection process to meet ARRA milestones for awarding half of the funds in
120 days and all funds within 1 year of the law’s effective date of
February 17, 2009. FAA also took steps to avoid supplanting other expenditures
with ARRA funds.7 Additionally, the Agency increased its oversight of grant
recipients, although continued effort will be needed to comply with March 2010
OMB guidance requiring use of single audit reports to monitor ARRA recipients.8
                      Table 1. FAA’s Compliance with Key ARRA Requirements
                                                                                                 Partially   Not
                            ARRA Requirements                                      Fulfilled     Fulfilled Fulfilled

    Use discretionary grant process to deliver programmatic
    results and achieve long-term public benefits.
    Award 50 percent of funds within 120 days and remaining
    funds not later than 1 year after enactment.
    Give priority to those projects that can be completed by
    February 2011.
    Ensure projects supplement and not supplant planned
    expenditures.

    Increase oversight beyond normal levels.


    Design transparent merit-based selection criteria.

    Design selection process to optimize economic activity
    relative to Federal dollars obligated.9
Source: OIG analysis


5
    This review is one of a series of audits we are conducting of FAA’s implementation of ARRA.
6
    On March 20, 2009, the President directed executive agencies to design merit-based selection criteria to support
    particular projects with ability to (i) deliver programmatic results, (ii) optimize economic activity relative to Federal
    dollars obligated, (iii) achieve long-term public benefits, and (iv) satisfy transparency objectives.
7
    ARRA required that Recovery funds supplement and not supplant planned expenditures from airport-generated
    revenues or other state and local sources.
8
    In addition to assessing FAA’s compliance with ARRA selection requirements, we elected to follow up with the
    Agency on its efforts to comply with OMB guidance on increasing oversight by using single audits as a tool to
    monitor ARRA grant recipients; we also raised this issue in our August 2009 advisory to FAA.
9
    The President also directed agencies to select projects that would create or save jobs. We did not include this in our
    review since this topic is being addressed in a separate OIG audit, announced on November 19, 2009:
    http://www.oig.dot.gov/library-item/5232.
                                                                                                                      3


However, FAA was not fully transparent in justifying its selection of some lower
priority projects or reporting actual grant amounts. For instance, FAA set a goal
of funding higher priority projects through ARRA but did not publicly disclose on
its website the justifications for choosing more than 80 lower-scoring projects
(more than 20 percent of those selected).10 Until FAA provides these disclosures
to the public, it will not be transparent to the Congress and taxpayers why lower
scoring projects were funded. Moreover, FAA initially published the ARRA
recipient names and grant estimates on its Recovery Act website. However, we
found that most of the estimates (243 of 319) were not updated to reflect the actual
amounts later awarded. In particular, 25 of these project cost estimates were off
by more than 50 percent. After we brought this to FAA’s attention, it published
the actual amounts obligated for each grantee.

FAA also did not ensure its selected projects would optimize economic activity, as
required by Presidential direction. FAA maintains it met this requirement because
it considered economic factors (such as airport growth and long-term usage) when
developing its Airport Capital Improvement Plan (ACIP)—a rolling plan of
AIP-eligible projects. However, we found no evidence that FAA applied these
factors when developing its list of potential ARRA grant candidates, or in
determining whether the projects selected would provide maximum economic
impact. Moreover, FAA’s ability to select projects that would optimize economic
activity was limited by Agency policies that went beyond congressional and
Presidential requirements (e.g., widespread geographic distribution, accelerated
timelines, and caps on award amounts). While these policies helped FAA
distribute ARRA funds quickly to every state, they also resulted in the selection of
some questionable projects, including five small airfields in Alaska. In total, these
five airfields received as much funding as the entire State of Texas ($59 million)
and more than the States of Florida ($55 million), Illinois ($46 million), and New
York ($29 million). Only California received more ARRA funding at $85 million.

While FAA’s ARRA grant award process is finished, both the Agency’s successes
and areas for improvement should serve as lessons learned for FAA as well as the
Department. We are making recommendations to further improve FAA’s public
transparency and oversight of existing ARRA grant selections.

BACKGROUND
The Congress, the President, OMB, and FAA all imposed requirements for
implementing ARRA. The ARRA legislation established tight timeframes for
distributing and expending funds and emphasized preference for projects that
could be completed in 2 years. ARRA also required that FAA make grants for

10
     For ARRA purposes, higher priority projects are those scoring equal to or higher than 62 in FAA’s National Priority
     Rating (NPR) system.
                                                                                                                     4


discretionary projects using its established AIP process and ensure that grants did
not supplant planned expenditures from other sources. Subsequently, the
President directed agencies to develop transparent, merit-based selection processes
that would fund projects with a demonstrated or potential ability to achieve
economic stimulus. OMB guidance required that agencies increase grantee
oversight beyond normal levels.11 Finally, FAA issued guidance to its regional
officials that placed additional restrictions on the Agency’s selection process. See
Exhibit B for a listing of key ARRA requirements and associated criteria.

In following its established AIP process, FAA utilizes a 3- to 5-year rolling plan of
potential projects developed in cooperation with airport sponsors, planning
agencies, and the States. Known as the ACIP, this plan prioritizes projects for
funding based on such factors as safety, security, capacity, and environmental
mitigation.12 Each year, FAA develops a discretionary candidate list of projects
from the ACIP based first on quantitative and then qualitative factors.
Quantitatively, FAA uses its National Priority Ratings (NPR) to assign projects a
rating score from 0 to 100—the higher the rating, the higher the priority.13 After
assigning NPR scores, FAA applies qualitative factors to further differentiate
between candidate projects. Qualitative factors include, but are not limited to, a
sponsor’s past performance in meeting grant requirements and whether the airport
has completed a required environmental review.

FAA’S SELECTION PROCESS FULFILLED MOST ARRA
REQUIREMENTS BUT WAS NOT FULLY TRANSPARENT OR
DESIGNED TO OPTIMIZE ECONOMIC ACTIVITY
FAA’s project selection process effectively fulfilled most ARRA requirements.
These include meeting tight timeframes for distributing and expending funds, and
giving preference to projects that could be completed within 2 years. FAA also
increased oversight of ARRA projects as directed by OMB but will need to take
additional actions to comply with updated OMB guidance. In addition, FAA
pointed out that using ARRA funds on airport projects provided both
programmatic results and long-term benefits. While we agree, FAA should have
used a more transparent project selection process and given more consideration to
projects’ potential economic impact before awarding grants to fully meet
Presidential direction. Meeting these last two objectives would have provided
greater assurance that ARRA funds went to the best candidates.

11
     OMB Memo M-09-10, “Guidance on the American Recovery and Reinvestment Act,” February 18, 2009, and OMB
     Memo M-10-14, “Updated Guidance on the American Recovery and Reinvestment Act,” March 22, 2010.
12
     In our report, “Prioritization of Airport Improvement Program Funding,” we found that FAA follows its ACIP
     process to ensure the Agency’s highest aviation priorities are funded (Report No. AV-2008-002, October 26, 2007).
13
     The NPR is based on a mathematical formula that takes into account the type of facility (e.g., runway, taxiway, or
     terminal), the type of development (e.g., new construction, extension, or rehabilitation), and airport size.
                                                                                                                    5


FAA Met a Number of Key ARRA Requirements in Awarding and
Overseeing $1.1 Billion in Airport Grants
FAA fulfilled key ARRA requirements in distributing $1.1 billion in airport grants
to 360 projects nationwide. FAA used its normal AIP discretionary grant process
as required by ARRA. Having an established process enabled FAA to meet the
ARRA deadline for awarding half of the $1.1 billion within the first 120 days and
the remainder within 1 year of the law’s effective date.14 FAA also ensured that
most projects selected could be completed within the ARRA timeframe of 2 years
and grants would not supplant planned expenditures from other sources. In
addition to meeting these ARRA requirements, FAA increased its oversight of
ARRA-funded projects, but will need to take further steps to comply with OMB
guidance issued in March 2010. This guidance requires Federal agencies to
review and act on single audit findings pertaining to ARRA grant recipients.

FAA Selected Projects That Could Be Completed Within ARRA
Timeframes and Did Not Supplant Other Funds
We reviewed 114 ARRA-funded projects and found that 111 were scheduled to be
completed by the ARRA goal of February 2011.15 To provide assurance that
selected projects would meet this goal, FAA gave preference to funding pavement
rehabilitation projects (e.g., runways, taxiways, and aprons) that could be
completed in one construction season. In fact, FAA invested more than 80 percent
of ARRA funds for these types of projects (see figure 1).

                                    Figure 1. ARRA Funding by Project




                                       81%
                                                                                         Pavement
                                                                                         Terminal
                                                                                         Fire, Equip, & Bldgs
                                                                                         New airport
                                                                                         Other

                                                                   8%
                                      4%      3%     4%


        Source: OIG analysis




14
     As of August 2010, ARRA recipients have expended approximately 77 percent of the $1.1 billion.
15
     The 114 ARRA grants were issued by the 6 FAA Airport District Offices that comprised our statistical sample.
                                                                                                                      6


Of the three remaining projects from our sample, one is scheduled to be completed
shortly after the ARRA target date. The other two, described below, will not be
completed until much later in 2011:

     • FAA awarded a $13.9 million ARRA grant for new airport construction in
       Akiachak, Alaska. The ARRA grant will fund only the first phase, which is
       site preparation. The new airport is actually not scheduled to be completed
       until October 2011 and will require a separate non-ARRA (AIP) grant
       estimated at $12 million.
     • FAA will not meet the completion goal for a $14 million project at Atlanta-
       Hartsfield for a portion of a new apron. This project was delayed due to
       scheduling and staging issues and will not be completed until September 2011.
       While ARRA does require that FAA give priority to those projects that can be
       completed by February 2011, it does not prohibit funding projects that exceed
       this timeframe.

FAA met another statutory requirement by ensuring ARRA grant awards
supplemented, not supplanted, other planned expenditures. Specifically, FAA
required airports to commit all available AIP funds to other fiscal year (FY) 2009
projects before qualifying for ARRA grants. Nonetheless, we identified
12 airports that carried over FY 2009 AIP funds to FY 2010.

     • In 10 of the cases,16 the airports requested and FAA approved that the funds be
       carried over prior to passage of the ARRA Act.
     • The remaining two airports were allowed to carry over funds post-ARRA
       because of extenuating circumstances (i.e., a low bid received at the end of the
       fiscal year at one airport and unforeseen project delays at Chicago O’Hare,
       resulted in a more significant FY 2009 carryover).

Based on our review of all 12 cases, we determined that supplanting did not occur
since no ARRA funds replaced FY 2009 planned funding.

FAA Increased Its Oversight of ARRA Grantees, but Continued Effort Is
Needed To Meet Updated OMB Guidance
To ensure adequate oversight of ARRA funds, OMB issued two guidance
memoranda. The first, issued in April 2009, required Executive Branch agencies
to increase oversight for ARRA grantees to meet transparency and accountability
requirements. The second, issued in March 2010, directed agencies to use single


16
     Moreover, in 9 of the 10 cases, the amounts were considered insufficient to fund any other 2009 projects. The only
     exception was Los Angeles, which elected to carry over about $4.6 million because the project for which these funds
     were committed was delayed.
                                                                                                                7


audit results as a tool to identify ARRA grantees at higher risk and resolve audit
findings. In response to the first memoranda, FAA took the following actions:

     • Acquiring additional program and engineering expertise. FAA added eight
       ARRA-related positions to provide needed program and engineering expertise
       at selected field locations. FAA determined that these locations had
       insufficient staffing to handle the increased ARRA workload.
     • Conducting site visits of ARRA recipients. According to FAA, it conducted
       site visits at the 97 airports in our sample (see exhibit E). We note, however,
       that these site visits focus primarily on engineering and technical aspects, such
       as construction status of projects, and not on the sponsors’ compliance with
       financial requirements (e.g., allowable costs, cash management, and eligibility
       of expenditures).

     • Hiring an accounting firm to sample ARRA payments. To increase its
       oversight regarding sponsors’ compliance with financial requirements, FAA
       hired an accounting firm, Deloitte/Touche, to sample payment requests from
       24 of the more than 300 airports that received ARRA funds. In the long term,
       FAA intends to use the results of the Deloitte/Touche sample payment audit to
       improve its risk-based approach to grantee oversight.

Although FAA has taken steps to improve it oversight of ARRA grant recipients,
the Agency will need to continue efforts to meet OMB’s March 2010 requirements
to make better use of single audit reports. In its guidance, OMB stated that single
audit reports are important tools for monitoring accountability in Recovery Act
programs. While FAA acts on single audit reports, its reviews are limited to
resolving findings that our office brings to its attention. For ARRA recipients,
OMB has increased agency responsibilities to include the following:

     • Reviewing single audit reports for all ARRA recipients for FY 2009 and later,

     • Analyzing findings across grantees and programs to identify high-risk areas,

     • Resolving all audit findings within 6 months and disallowing extensions,17 and

     • Considering additional monitoring and inspections of ARRA recipients.

Our prior work supports OMB’s conclusion about the importance of single audits
as a tool for overseeing a recipient’s grant management. Our 2009 ARRA
advisory recommended that FAA increase oversight of ARRA recipients with
histories of single audit findings. In particular, we noted that Owensboro,

17
     According to FAA, the Agency has more stringent requirements, calling for resolution within 30 days and final
     action in 6 months.
                                                                                                                   8


Kentucky, and Guam have long histories of single audit grant compliance issues.
In response, FAA raised its risk assignment level for Owensboro. FAA also
increased its oversight of Guam after the airport’s 2009 single audit report
questioned Davis-Bacon Act compliance18 and costs of $1.2 million. While these
actions are responsive to our advisory, we note that FAA awarded ARRA grants to
20 other high-risk sponsors, which received $126 million of the $1.1 billion in
ARRA funds (or 11 percent). Given the sizeable investments and risks associated
with these 20 sponsors (as well as other grant recipients), it is important that FAA
use single audits to focus its oversight and ensure proper use of ARRA funds.

FAA’s Grant Selection Process Was Not Fully Transparent and Did
Not Consider Economic Optimization
While FAA fulfilled five key ARRA requirements, it did not modify its AIP
selection process to fully meet requirements related to transparency and
optimizing economic activity. FAA was not fully transparent when it did not
disclose justifications for choosing lower-scoring projects or actual grant amounts
on its public website. In addition, FAA could have done more to ensure its grant
selections optimized economic activity by considering additional rating factors
when selecting grantees. Instead, FAA overemphasized geographic distribution
and adopted an accelerated timeline. By doing so, FAA limited consideration of
other potential candidates that could have provided greater economic stimulus.

FAA’s Selection Process Was Not Fully Transparent
FAA should have been more               Figure 2. Lower Scoring ARRA Projects
transparent about the results of
its selection process. According        Apron (Score 43-61)
to the Agency’s planning                                                            29
                                     Terminal (Score 31-47)
process guidance, “FAA must                                                        24
distribute funds to the regions in    Taxiway (Score 42-61)
                                                                            14
a way that ensures that,              New Airport Score 40)
nationally,    highest     priority                                  3
                                        Other (Score 42-58)
projects are funded.” Moreover,                                   10
FAA emphasized in public                                    $0        $50         $100
testimony its goal to select the                               Dollars in Millions
highest priority projects, defined    Source: OIG analysis

by FAA as an NPR score of at
least 62.19 Yet, FAA awarded over 80 grants to lower-scoring projects. See figure
2 for a breakout of these projects by construction category and associated NPR

18
     As ARRA requires, the Davis-Bacon Act (Pub. L. No. 74-403 [1931]) directs grant recipients to pay laborers wages
     at rates not less than those prevailing on similar local projects as determined by the Secretary of Labor.
19
     Hearing before the House Committee on Transportation and Infrastructure, June 25, 2009, “Implementation of the
     American Recovery and Reinvestment Act of 2009” (statement of J. Randolph Babbitt, Administrator, FAA).
                                                                                   9


scores. Overall, lower-scoring projects comprised $289 million or almost
26 percent of total ARRA dollars. Until FAA is more transparent about its reasons
for selecting each low scoring project—as required by the President’s direction—
concerns will remain that it did not maximize efforts to ensure that only the
highest priority projects received ARRA funding.

As table 2 illustrates, we also found wide disparities in regions’ decisions to award
grants to lower-scoring projects. Nearly half of ARRA funding in Alaska went to
lower-scoring projects. Also, FAA’s Great Lakes, Southern, and Central regions
distributed over a third of their ARRA funds to lower-scoring projects. In
comparison, only 6 percent of Western Pacific region’s ARRA funds went to such
projects.
           Table 2. Regional ARRA Funding for Lower-Scoring Projects
                                                    Low NPR        % Low
             FAA Region        Total Obligations
                                                   Obligations      NPR
          Alaska                   $81,804,301       $40,003,747     49%
          Great Lakes             $187,869,740       $76,786,816     41%
          Southern                $179,109,822       $67,106,217     37%
          Central                  $62,318,990       $22,540,304     36%
          NW Mountain             $135,743,900       $40,416,963     30%
          Eastern                 $117,783,118       $16,998,351     14%
          New England              $52,820,785        $6,401,021     12%
          South West              $118,401,787       $10,000,000      8%
          Western Pacific         $157,698,523        $8,711,669      6%
           Grand Total          $1,093,550,966      $288,965,088    26%
        Source: OIG analysis


Further, FAA was not transparent in the process used to select the 24 non-hub
terminal projects that were included in the 80 low-scorers. Terminal projects are
not normally funded due to their low NPR scores (i.e., less than 40). Yet, FAA
did not provide justifications for selecting the 24 terminal projects for ARRA
funding even though it required regional officials to document their justification of
all other low scoring projects. Instead, for ARRA purposes, FAA classified
terminal projects as “special focus area initiatives” with an NPR equivalent rating
of 62─noting that many of the older facilities no longer meet current building
standards. It also exempted regions and Airport District Offices from providing
justifications to support these selections.
                                                                                                                 10


Finally, FAA was not fully transparent in      Table 3. Awarded ARRA Grants Under
reporting the grant amounts it awarded.             or Over Approved Estimate
Rather than reporting actual amounts, the             (as of November 5, 2009)
Agency only reported estimated amounts                            Percent    Number
on its public website, which is in keeping                     Above/Below      of
                                   20                             Estimate   Projects
with FAA’s normal AIP process. FAA
should have modified this process to meet Under Estimate       1-24%               99
the President’s direction to be fully                          25-50%              50
                                                               51%+                17
transparent in reporting ARRA grant
                                                               Sub-Total:        166
award amounts. Our analysis (see table 3)
found significant differences between On Estimate              Sub-Total:          76
estimated and approved ARRA grant Over Estimate                1-24%               52
amounts.      For example, 243 of the                          25%-50%             10
319 grants were not updated to reflect the                     51%+                 8
actual grant amounts. In addition, for 25                      Sub-Total:          70
of the 319 listed on FAA’s website, the Unclear                Sub-Total            7
estimates differed from the actual amounts Grand Total                           319
by more than 50 percent. Publishing the Source: OIG analysis
actual award amount provides a clearer picture as to how much money each
project received. Soon after bringing this issue to FAA’s attention in December
2009, the Agency revised its ARRA website to provide actual award amounts.

FAA Did Not Enhance Its Selection Process To Optimize Economic Activity
FAA did not enhance its normal AIP process to consider projects on the basis of
their potential to optimize economic activity, as required by Presidential direction.
According to FAA, no additional steps were needed because long-term economic
benefits are inherent in its AIP selection and planning process. In particular, FAA
maintains that its planning process considers economic factors, such as airport
growth and long-term usage. In addition to these factors, FAA also funds state
aviation planning efforts, including airport economic impact studies.
Nevertheless, the Agency did not consider economic factors or the results of
economic studies in prioritizing and selecting projects for ARRA funding. Such
economic information should have been considered given the Presidential
direction that agencies design selection processes and affirmatively determine in
advance that each project could optimize economic activity.

Consequently, FAA selected some projects that do not appear—without
supporting analysis—to optimize economic activity. For example, we identified
14 airports receiving ARRA funding that serve communities with limited demand


20
     ARRA requires that agencies publicly report on their websites a range of information relating to recovery funds,
     such as award recipients, actual dollar amounts obligated, and project descriptions.
                                                                                                                      11


for flight services (see table 4). Overall, these 14 airports received a total of about
$72 million in ARRA grants.
                              Table 4. ARRA Recipients Serving Communities
                                         with Low Daily Operations
                                                         City                Daily
                   Grant Recipient                                                           ARRA Amount
                                                      Population21         Operations
        Akiachak, AK                                       659                  8                $13,953,325
        Allakaket, AK                                      100                  6                $10,000,000
        Huslia, AK                                         265               N/A                  $7,000,000
        Fort Yukon, AK                                     585                 23                $13,659,708
        Ouzinkie, AK                                       170                  1                $14,707,949
        Taylor, AZ                                       4,139                 10                 $1,640,523
        Cook County (Adele), GA                          5,396                 22                   $656,000
        Bacon County (Alma), GA                          3,490                 19                   $734,000
        Telfair-Wheeler (McRae), GA                      4,378                 11                   $890,000
        Arco-Butte County, ID                              977                 23                   $931,878
        Driggs-Reed Memorial, ID                         1,362                 21                 $3,750,128
        Shoshone County (Kellogg), ID                    2,228                 21                   $801,917
        Grant County (John Day), OR                      1,512                 26                   $366,419
        Wilbur, WA (received two grants)                   878                 25                 $3,083,293
                          Total                                                                  $72,211,140
       Source: OIG analysis


Moreover, of these 14 airports, FAA awarded $59 million to 5 village airfields in
Alaska serving a total population of less than 1,800 residents. As figure 3 shows,
these five airfields received as much as all ARRA airport recipients in the State of
Texas and more than any other state except California.
                           Figure 3. Top 10 States Receiving ARRA Grants




                       Source: OIG analysis


21
     Although we provide city population figures, all the airports outside of Alaska are readily accessible to surrounding
     communities.
                                                                                                               12


Considering other factors during its selection process—such as surrounding
population and flight operation statistics as well as airport growth and long-term
usage—would have allowed FAA to evaluate the relative economic merits of
candidate airports. Similarly, FAA could have considered using Agency-funded
airport economic impact studies. For example, studies of airports in Galveston,
Texas,22 and Klamath Falls, Oregon,23 show that these airports produce sizeable
annual economic impacts (both direct and indirect) of $113 million and
$85.9 million a year. In comparison, Wilbur, Washington,24 and La Grande,
Oregon,25 respectively, had impacts of only $1.1 million and $3.3 million. At the
other end of the economic scale, Dallas/Fort Worth, Texas, has an annual
economic impact of $16.6 billion.26 While all of these airports received ARRA
grants, it is unclear without supporting analyses, whether and to what extent
FAA’s ARRA-funded projects optimized economic activity.

FAA’s Selection Process Limited the Candidate Pool by Overemphasizing
Geography and Adopting an Accelerated Timeline
FAA’s ability to optimize economic activity was further limited because FAA
applied restrictions not required by ARRA or Presidential direction. These
restrictions include (1) allocating ARRA funds geographically according to their
historical AIP funding distribution, (2) setting an internal goal to have all funds
obligated by the end of FY 2009, and (3) establishing caps of $15 million per
project/$20 million per sponsor (see exhibit B for a listing of FAA’s ARRA-
related criteria). Although these restrictions served several FAA purposes (e.g.,
encouraged widespread and accelerated distribution of funds), they worked against
optimizing economic activity.

According to FAA, it allocated ARRA funds based on historical AIP discretionary
funding to each of its regions and the states in accordance with its normal
process.27 To distribute ARRA funds widely, FAA limited the amount of funds
that any one airport or sponsor could receive. However, our analysis of FAA’s
distribution shows that its focus on regions and states resulted in some smaller
airports receiving far greater support from ARRA than they historically received
in the past. Using FAA grant history data, we identified 10 small airports in
9 states that received more in a single ARRA grant than each received in AIP
funding from 1999 through 2009 combined. In total, ARRA provided almost five

22
     “The Economic Impact of Scholes International Airport at Galveston,” Wilbur Smith Associates, Texas Department
     of Transportation, 2005.
23
     “Economic Impact of Oregon Airports,” Oregon Aviation Plan. State of Oregon Department of Aviation, 2007.
24
     “Economic Impact of Washington Airports,” Bucher Willis and Ratliff Corporation, Washington Department of
     Transportation, 2001.
25
     Economic Impact of Oregon Airports,” Oregon Aviation Plan. State of Oregon Department of Aviation, 2007.
26
     “The Economic Impact of Dallas/Fort Worth Airport,” Wilbur Smith Associates, Texas Department of
     Transportation, 2005.
27
     FAA’s nine regional offices are Alaska, Central, Eastern, Great Lakes, New England, Northwest Mountain,
     Southern, Southwestern, and Western-Pacific.
                                                                                                                    13


times as much funding (i.e., $53 million vs. $11 million) for these 10 airports than
they received in regular AIP funding in the last 11 years (see table 5). Thus,
FAA’s overemphasis on allocating funds by region and state limited the
consideration of other potential projects that could have provided greater
economic activity.
             Table 5. Comparison of Prior AIP Funding to ARRA Grant Amounts
                                                        Total AIP
                   Grant Recipient                                                      Total ARRA
                                                    1999 through 2009
            Fort Yukon, AK                                 $1,890,542                     $13,659,708
            Allakaket, AK                                   $700,000                      $10,000,000
            Compton/Woodley, CA                            $2,198,315                      $8,000,000
            Mitchell Municipal, SD                         $2,451,045                      $6,700,000
            Ticonderoga, NY                                  $699,429                      $3,215,206
            Wilbur, WA                                      $752,775                       $3,083,293
            Dexter Regional, ME                              $886,395                      $2,785,000
            G. V. Montgomery, MS                             $854,372                      $2,243,919
            Quakertown, PA                                         $0                      $1,834,420
            Vaiden Field, AL                                $456,408                       $1,261,298
             Total                                        $10,889,281                     $52,782,844
           Source: OIG analysis

FAA also set an objective to obligate all grant funds by the end of FY 2009,28
5 months ahead of the February 2010 ARRA deadline. FAA’s accelerated
timeline limited airport sponsors’ ability to meet some of the Agency’s eligibility
requirements for receiving ARRA grants (e.g., design substantially complete and
would be bid prior to grant award). For example, Merrill Field in Alaska had a
project that did not receive an ARRA runway grant because when FAA made its
Alaska selections, the airport sponsor needed a few more months before the
runway design would be complete.29 Merrill Field is the largest general aviation
airport in Alaska with almost 1,000 aircraft and over 40 businesses based at the
airport. In addition, the airport receives an average of more than 500 flights and
1 medical flight per day (Anchorage Regional Hospital is physically connected to
the airport via taxiway). Consequently, Merrill Field is an economic and medical
lifeline to many Alaskan villages. Because of FAA’s restrictions, projects such as
these, even if they had greater economic potential, did not compete effectively in
FAA’s selection process.




28
     FAA Stakeholder Guidance, June 2009.
29
     Merrill Field was awarded ARRA grants of $1.87 million to rehabilitate an apron and $3.68 million to rehabilitate a
     taxiway for a total of just $5.5 million, while smaller village airfields received much more ARRA funding.
                                                                                 14


CONCLUSION
ARRA has proven a critical component in helping many of the Nation’s airports
maintain or expand their existing infrastructure—whether in the form of repaving
worn-out taxiways and aprons, building new terminal facilities, or expanding
existing runways. FAA’s focus on complying with ARRA’s direction to use its
normal discretionary process allowed the Agency to meet the ARRA requirement
to distribute $1.1 billion within the Act’s timeframes. Yet, FAA should have also
focused on complying with Presidential direction to ensure greater transparency
and optimize economic activity. Additionally, FAA should have determined the
impact of the self-imposed criteria, beyond what ARRA required, that reduced the
pool of potential ARRA projects, and in turn, restricted the Agency’s ability to
optimize economic activity. Although FAA has completed its selection of ARRA
grant recipients, the Agency still needs to ensure that it adheres to transparency
requirements and OMB guidance for increased oversight.

RECOMMENDATIONS
To enhance compliance with ARRA presidential direction and OMB guidance, we
recommend that the Agency:

 1. Increase transparency by posting on its Recovery Act website specific
    justifications for lower scoring projects (including special emphasis).
    Justifications should include a description of the actual or anticipated
    economic activity derived from each project.

 2. Increase transparency of its normal AIP process by requiring public reporting
    of actual as well as estimated grant amounts.

 3. Comply with OMB guidance by (a) ensuring each Airport District Office
    applies sufficient levels of oversight to ARRA grantees, particularly those
    which FAA has identified as being at higher risk, and (b) using FY 2009
    single audit reports to identify high risk areas, consider additional monitoring
    or inspections, and expedite resolution of report findings for all ARRA
    grantees.

AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE
We discussed the results of our review with officials from FAA’s Office of
Airports on November 4, 2010, and provided FAA with our draft report on
December 17, 2011.      We received the Agency’s formal response on
January 31, 2011, which is included in its entirety as the appendix to this report.
FAA concurred with all three of our recommendations and has either taken or
                                                                                15


planned sufficient actions to resolve each recommendation. In its response,
however, FAA maintains that its project selections were fully compliant with
statutory requirements and consistent with Executive Branch guidance and that our
report should not have applied the collective term “requirements” to both ARRA
statutory elements and Executive Branch guidance. According to FAA, ARRA
statutory elements are clearly requirements, while Executive Branch ARRA
guidance reflected goals to be implemented “to the extent permitted by law and
practicable.” Finally, in its response, FAA stated that in weighing these goals, we
overemphasized the goal of economic optimization.

We agree that FAA needed to comply with all elements of the ARRA statute and
acknowledge that it did so. However, FAA also needed to comply with
Presidential direction and OMB guidance. Our report clearly identifies which
requirements are statutory and which are direction or guidance, with all given
equal consideration. As such, we do not agree that we overemphasized the
importance of “optimizing economic activity” in the context of ARRA, an Act
which was expressly directed at economic stimulus.

ACTIONS REQUIRED
We consider recommendations 1 and 2 as resolved but open pending
implementation of FAA’s planned actions. In accordance with Department of
Transportation 8000.1C, we request that FAA inform us when it has completed its
remaining planned actions. FAA has already taken sufficient actions to address
the intent of our third recommendation.           Accordingly, we consider
recommendation 3 closed.

We appreciate the courtesies and cooperation of FAA and airport representatives
during this audit. If you have any questions concerning this report, please contact
me at (202) 366-0500 or Darren Murphy, Program Director, at (206) 220-6503.

                                        #

cc: Acting Associate Administrator for Airports
    Anthony Williams, AAE-001
    Martin Gertel, M-100
                                                                                                                 16




EXHIBIT A. SCOPE AND METHODOLOGY
We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform
the audit to obtain sufficient, appropriate evidence to provide a reasonable basis
for our findings and conclusions based on our audit objective. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions.
We conducted the audit between September 2009 and December 2010 and
included such tests of procedures and records as we considered necessary,
including those providing reasonable assurance of detecting abuse and illegal acts.

To assess the extent to which FAA complied with ARRA requirements and
Agency policies, procedures, and criteria for selecting AIP projects for Recovery
Act funding, we interviewed officials from FAA’s Headquarters and regional
offices as well as 6 randomly selected Airport District Offices (of 24 total). For
the Airport District Offices in our sample, we examined all 114 projects that
received ARRA funding, which comprised nearly 32 percent of the total number
of FAA-funded ARRA projects.30 For each of the 114 projects, we reviewed the
Airport District Office files to verify that projects met ARRA requirements. We
also reviewed regional ARRA candidate lists, AIP discretionary grant lists, and
carryover reports to ensure that ARRA funds did not supplant planned funding
from other sources. Our scope, however, did not include assessing the engineering
or technical value of each project.

To assess FAA’s efforts to fulfill OMB guidance, including increased oversight
and consideration of single audit findings, we discussed project selection and grant
oversight responsibilities with Airport District Office and regional officials. We
also examined single audit report histories for ARRA grant recipients in our
sample. Finally, we visited 24 airports with ARRA projects in our sample during
the course of our review. See exhibits C and D for a complete list of facilities
visited or contacted during the audit.

To evaluate whether projects that may have had a greater potential to optimize
economic activity went unfunded, we obtained economic impact data for airports
selected for ARRA funding. To identify ARRA grantees that may not have
optimized economic activity, we compared flight operations and population
statistics for ARRA grantees in our sample.



30
     Subsequent to our audit work, FAA selected several additional projects for ARRA grants. Because these grants do
     not materially affect our findings, conclusions, or recommendations, we did not update our analysis, tables, and
     figures with the additional grants.


Exhibit A. Scope and Methodology
                                                                                                                        17



      EXHIBIT B. KEY ARRA REQUIREMENTS AND CRITERIA
                                                     Presidential Memorandum
                                                                                                          FAA
               ARRA Act                               “Ensuring Responsible
                                                                                                  Stakeholder Guidance
            February 16, 2009                       Spending of ARRA Funds”
                                                                                                       June 200931
                                                          March 4, 2009
Distribute funds as discretionary grants           Develop transparent merit-based            Used its normal AIP
to airports.                                       selection criteria.                        discretionary program to fund
                                                                                              ARRA projects.
                                                   May be tailored to the particular
                                                   funding activity.                          Allocates ARRA funds based
                                                                                              on historical distributions to
                                                   Recovery Act funds should be               regions.
                                                   distributed on the merits of
                                                   proposed projects.                         Limits the maximum amount
                                                                                              of any ARRA funding to a
                                                                                              single project to $15 million,
                                                                                              and to a single sponsor to
                                                                                              $20 million to achieve
                                                                                              equitable distribution across
                                                                                              regions, states, and service
                                                                                              levels.
Award grants totaling not less than                                                           Directs regional officials to
50 percent of the funds within 120                                                            give priority consideration to
days and the remaining funds not later                                                        projects that can be awarded
than 1 year after enactment of this Act.                                                      within 120 days (June 17,
                                                                                              2009) and all funds by the end
                                                                                              of FY 2009.
Give priority to those projects that can                                                      Give preference to projects that
demonstrate ability to be completed                                                           are “ready to go (i.e., all AIP
within 2 years.                                                                               prerequisites are complete);
                                                                                              meet grant issuance
                                                                                              requirements within 120 days
                                                                                              or prior to the close of
                                                                                              FY 2009; and can be
                                                                                              completed within 2 years
                                                                                              (February 11, 2011).
ARRA funds shall serve to                                                                     Projects that were previously
supplement, not supplant planned                                                              identified for FY 2009
expenditures from airport-generated                                                           entitlement funding or
revenues or other State or local                                                              discretionary funding were
sources.                                                                                      deemed ineligible for ARRA
                                                                                              funding.


      31
           FAA considers stakeholders to be both internal and external to the Agency. For instance, FAA regional offices and
           airport sponsors received copies of this stakeholder guidance.


      Exhibit B. Key ARRA Requirements and Criteria
                                                                                                     18


                                           Presidential Memorandum
                                                                                          FAA
             ARRA Act                       “Ensuring Responsible
                                                                                  Stakeholder Guidance
          February 16, 2009               Spending of ARRA Funds”
                                                                                       June 2009
                                                March 4, 2009
                                                                              Sponsors were required to
                                                                              commit all currently available
                                                                              entitlements to FY 2009
                                                                              normal AIP projects.
To preserve and create jobs and          Ensure ARRA funds are                Issue grants for high priority
promote economic recovery.               expended for projects that further   projects that can proceed to
                                         job creation and economic            construction quickly to
To invest in transportation,             recovery and are not used for        preserve and create jobs and
environmental protection, and other      imprudent projects.                  promote economic recovery.
infrastructure that will provide long-
term economic benefits.                  Design merit-based selection
                                         criteria to support particular
Commence expenditures and activities     projects with ability to:
as quickly as possible consistent with
prudent management.                      (i) deliver programmatic results;

                                         (ii) achieve economic stimulus
                                         by optimizing economic activity
                                         and the number of jobs created
                                         or saved in relation to the
                                         Federal dollars obligated;

                                         (iii) provide long-term public
                                         benefits by… investing in
                                         transportation infrastructure that
                                         will provide long-term economic
                                         benefits; and

                                         (iv) satisfy the Recovery Act’s
                                         transparency and accountability
                                         objectives.

                                         Undertake unprecedented efforts      Requires ARRA-funded
                                         to ensure the responsible            project work to result in a final
                                         distribution of funds and provide    useable unit (no partial
                                         public transparency and              projects).
                                         accountability of expenditures.
                                                                              ARRA funds will be tracked
                                                                              separately and cannot be mixed
                                                                              with AIP funds.




      Exhibit B. Key ARRA Requirements and Criteria
                                                                        19




EXHIBIT C. FACILITIES VISITED OR CONTACTED
FAA Headquarters, Washington, DC
   • Office of Airports, Program and Planning, Washington, D.C.

FAA Regional Office
   • Alaska Regional Office, Anchorage, AK

   • Great Lakes Regional Office, Des Plaines, IL

   • Northwest Mountain Region, Renton, WA

   • Southern Region, College Park, GA

   • Western Pacific Region, Hawthorne, CA

FAA Airport District Offices
   • Alaska Airport District Office, Anchorage, AK

   • Seattle Airport District Office, Renton, WA

   • Atlanta Airport District Office, College Park, GA

   • Chicago Airport District Office, Des Plaines, IL

   • Los Angeles Airport District Office, Los Angeles, CA

   • Texas Airport District Office, Ft. Worth, TX

State Aviation Offices
   • State of Alaska Department of Transportation, Anchorage, AK

   • State of California Department of Transportation, Sacramento, CA

   • State of Illinois Department of Transportation, Springfield, IL

   • State of Georgia Department of Transportation, Atlanta, GA

   • State of Texas Department of Transportation, Austin, TX

   • State of Washington Aviation Department, Arlington, WA



Exhibit C. Facilities Visited or Contacted
                                                  20



EXHIBIT D. AIRPORTS VISITED
   • Kenai Municipal Airport, AK
   • Merrill Field, AK
   • Cook County Airport, GA
   • McKinnon-St. Simons Airport, GA
   • Bacon County Airport, GA
   • Chicago O’Hare International Airport, IL
   • Chicago/Rockford International Airport, IL
   • Whiteside County Airport, IL
   • Greater Peoria Regional Airport, IL
   • Gary/Chicago International Airport, IN
   • Elkhart Municipal Airport, IN
   • Dixon Municipal Airport, IL
   • Los Angeles International Airport, CA
   • Bob Hope/Burbank Airport, CA
   • Compton/Woodley Airport, CA
   • Gillespie Field, CA
   • San Diego International Airport, CA
   • Sierra Vista Municipal Airport. AZ
   • Tucson International Airport, AZ
   • Dallas/Ft. Worth International Airport, TX
   • Monroe Regional Airport, LA
   • Winston Field Airport, TX
   • Sulphur Springs Municipal Airport, TX
   • Paine Field, WA




Exhibit D. Airports Visited
                                                                                                                     21



EXHIBIT E. AIRPORT RECIPIENTS IN OUR SAMPLE32
                                                                                                           Average
                                                                          ARRA             Airport
No       State                   Airport Recipient                                                 33       Daily
                                                                        Obligation        Category
                                                                                                          Operations
 1         AK     Ouzinkie                                              $14,707,949          GA                   1
 2         AK     Akiachak                                              $13,953,325          GA                   8
 3         AK     Fort Yukon                                            $13,659,708           CS                23
 4         AK     Allakaket                                             $10,000,000           CS                  6
 5         AK     King Salmon                                            $8,454,220        Non-Hub             140
 6         AK     Huslia                                                 $7,000,000           CS                  -
 7         AK     Merrill Field (2 Grants)                               $5,546,000           CS               524
 8         AK     Fairbanks International                                $3,500,000         Small              365
 9         AK     Kenai Municipal                                        $2,888,253        Non-Hub             205
10         AK     Ted Stevens Anchorage International                    $2,094,846        Medium              793
11         AZ     Phoenix Sky Harbor International                      $10,356,135         Large            1,376
12         AZ     Kingman                                                $5,103,575          GA                143
13         AZ     Sierra Vista Municipal-Libby AAF                       $4,474,546          GA                365
14         AZ     Tucson International                                   $1,848,700        Medium              534
15         AZ     Avi Suquilla                                           $1,800,000          GA                 28
16         AZ     Taylor                                                 $1,640,523          GA                 10
17         CA     Los Angeles International                             $10,832,000         Large            1,115
18         CA     Compton/Woodley                                        $8,000,000        Reliever            181
19         CA     San Diego International                                $4,875,537         Large              609
20         CA     Bob Hope                                               $3,985,000        Medium              301
21         CA     Meadows Field                                          $2,725,219        Non-Hub             344
22         CA     Gillespie Field                                        $1,612,774        Reliever            669
23         CA     Camarillo                                                $986,237        Reliever            430
24         GA     Hartsfield-Jackson Atlanta International              $13,977,695         Large            2,959
25         GA     Malcolm McKinnon                                       $5,846,000          GA                123
26         GA     Peachtree City-Falcon Field                            $2,064,198          GA                205
27         GA     Savannah/Hilton Head International                     $1,620,034         Small              267
28         GA     Telfair-Wheeler                                          $634,904          GA                 11
29         GA     Bacon County                                             $734,000          GA                205
30         GA     Cook County                                              $686,898          GA                 22
31         ID     Driggs-Reed Memorial                                   $3,750,128          GA                 21
32         ID     Pocatello Regional                                     $1,850,000        Non-Hub              95
33         ID     Arco-Butte County                                        $931,878          GA                 23
34         ID     McCall Municipal                                         $897,000          GA                119
35         ID     Shoshone County Airport                                  $801,917          GA                 21
36         ID     Buhl Municipal                                           $615,068          GA                 41
37         IL     Chicago O’Hare International (2 Grants)               $17,294,387         Large            2,317


32
     ARRA Grant Obligation Information obtained from FAA’s Obligation and Disbursement Data as of June 11, 2009.
33
     FAA classifies “primary” commercial service airports on the basis of their percentage of annual passenger boardings
     nationwide (e.g., large--1 percent or more; medium--between 0.25 and 1 percent; small--between .05 and
     .25 percent; and nonhub--less than 0.05 percent, but more than 10,000 passengers). FAA categorizes all remaining
     airports as “nonprimary” (e.g., airports that receive between 2,500 and 10,000 passenger are classified as
     commercial service (CS); airports handling excess air traffic from primary airports are classified as relievers; and
     all remaining airports are classified as general aviation (GA).


Exhibit E. Airport Recipients in Our Sample
                                                                                          22


                                                                                    Average
                                                            ARRA         Airport
No   State               Airport Recipient                                           Daily
                                                          Obligation    Category
                                                                                   Operations
38    IL     Greater Peoria Regional                       $6,363,000   Non-Hub         146
39    IL     St Louis Downtown                             $4,703,084   Reliever        365
40    IL     Chicago/Rockford International (2 Grants)     $4,672,000   Non-Hub         212
41    IL     Quad City International                       $4,057,500    Small          135
42    IL     Abraham Lincoln Capital                       $2,468,534   Non-Hub          93
43    IL     Greater Kankakee                              $1,509,000     GA            137
44    IL     Waukegan Regional                             $1,229,200   Reliever        149
45    IL     Dixon Municipal-Charles R. Walgreen Field       $926,360     GA            110
46    IL     Decatur                                         $791,853      CS           122
47    IL     Whiteside County-Joseph H. Bittorf Field        $467,100     GA             90
48    IL     Litchfield Municipal                            $704,985     GA             41
49    IL     Jacksonville Municipal                          $306,350     GA             33
50    IL     Fairfield Municipal                             $231,917     GA             21
51    IN     Elkhart Municipal                             $3,939,317     GA             59
52    IN     Mount Comfort                                 $3,717,534   Reliever        145
53    IN     Indianapolis Executive                        $3,431,098   Reliever        124
54    IN     Terre Haute International                     $2,722,695     GA            112
55    IN     Columbus Municipal                            $1,320,740     GA             99
56    IN     Fort Wayne International                      $1,221,735   Non-Hub         179
57    IN     Indianapolis International                    $1,174,757   Medium          540
58    IN     Smith Field                                   $1,078,670     GA             55
59    IN     Gary/Chicago International                      $845,698   Non-Hub          99
60    IN     Purdue University                               $665,880     GA            315
61    IN     Delaware County-Johnson Field                   $382,707     GA             62
62    NC     Asheville Regional                            $7,629,527   Non-Hub         195
63    NC     Pitt-Greenville                               $7,616,822   Non-Hub         132
64    NC     Raleigh-Durham International (2 Grants)       $5,883,170   Medium          325
65    NC     Piedmont Triad International (2 Grants)       $5,595,500    Small          210
66    OR     Portland International                        $7,000,000   Medium          630
67    OR     Klamath Falls                                 $3,122,212   Non-Hub          66
68    OR     Southwest Oregon Regional                     $1,294,076   Non-Hub          50
69    OR     LaGrande/Union County                         $1,098,136     GA             44
70    OR     Grant County Regional/Ogilvie Field             $366,419     GA             26
71    SC     Myrtle Beach International                    $3,491,545    Small          253
             Greenville Spartanburg International
72    SC                                                   $2,510,489    Small          156
             (2 Grants)
73    SC     Grand Strand                                  $1,387,385     GA            128
74    SC     Jim Hamilton L.B. Owens                       $1,148,800   Reliever        153
75    SC     Mt Pleasant Regional-Faison Field               $708,823     GA             80
76    TX     Laredo International (2 Grants)              $10,565,744   Non-Hub         155
77    TX     Dallas/Fort Worth International (3 Grants)    $9,684,600    Large        1,808
78    TX     North Texas Regional/Perrin Field             $5,913,903     GA            146
79    TX     McAllen Miller International                  $5,400,000    Small          144
80    TX     Tyler Pounds Regional                         $4,910,534   Non-Hub          68
81    TX     Ellington Field                               $4,785,226   Reliever        347
82    TX     Kerrville Municipal/Louis Schreiner Field     $4,190,769     GA            164
83    TX     Waco Regional                                 $3,242,000   Non-Hub          85



Exhibit E. Airport Recipients in Our Sample
                                                                                          23



                                                                                    Average
                                                            ARRA         Airport
No   State                  Site Name                                                Daily
                                                          Obligation    Category
                                                                                   Operations
84    TX     Robert Gray AAF                               $2,752,473   Non-Hub          36
85    TX     Sulphur Springs Municipal                     $2,288,888     GA             49
86    TX     Scholes International at Galveston            $2,262,014   Reliever        167
87    TX     Winston Field                                 $1,956,420     GA             26
88    TX     Curtis Field                                    $914,840     GA             64
89    TX     East Texas Regional (2 Grants)                  $465,702   Non-Hub         245
90    WA     Spokane International (2 Grants)             $14,039,213    Small          223
91    WA     Snohomish County (Paine Field) (2 Grants)    $11,002,765   Reliever        311
92    WA     Tri-Cities (2 Grants)                         $9,077,593   Non-Hub         118
93    WA     Wilbur (2 Grants)                             $3,083,293     GA             25
94    WA     Bellingham International (2 Grants)           $2,280,772   Non-Hub         182
95    WA     Richland                                      $2,195,470     GA             79
96    WA     Pangborn Memorial (2 Grants)                  $1,317,000   Non-Hub         116
97    WA     Grant County International (2 Grants)         $1,178,144     GA            191
     Total   97 Airports                                 $393,040,635




Exhibit E. Airport Recipients in Our Sample
                                                        24




EXHIBIT F. MAJOR CONTRIBUTORS TO THIS REPORT


Name                               Title

Darren Murphy                     Program Director

Chuck Ward                        Project Manager

Linda Major                       Senior Auditor

Susan Cohen                       Senior Analyst

Gloria Echols                     Auditor

Sue Zimmerman                     Auditor

Curtis Dow                        Analyst

Petra Swartzlander                Senior Statistician

Andrea Nossaman                   Writer-Editor




Exhibit F. Major Contributors to This Report
                                                                                                            25


APPENDIX. AGENCY COMMENTS


                          Federal Aviation
                          Administration

Memorandum
Date:                  January 28, 2011
To:                    Jeffery B. Guzzetti, Assistant Inspector General for Aviation and Special
                       Program Audits
From:                  Clay Foushee, Director, Audit and Evaluation, AAE-1
Prepared by:           Catherine M. Lang
Subject:               Office of Inspector General (OIG) Draft Report, “FAA Fulfilled Most
                       ARRA Requirements in Awarding Airport Grants”


In August 2009, the Deputy Secretary signed a memorandum to the Inspector General,34
in response to an OIG Advisory. The memorandum made a clear and direct statement,
“FAA Project Selection of Airport Improvement Projects Fully Complied with
Applicable Requirements.” This was a true statement then and remains so. The FAA’s
project selections were fully compliant with statutory requirements, consistent with
executive branch guidance, transparent and well understood in accord with programmatic
criteria, and continue to receive appropriately enhanced oversight.

We appreciate the OIG report’s recognition of FAA’s fulfillment of the American
Recovery and Reinvestment Act of 2009 (Recovery Act) requirements. As required,
FAA used the AIP grant processes to achieve long term public benefits through its
investments in projects of enduring aviation value. The projects were awarded
expeditiously, and in accord with applicable requirements. Priority was given to those
projects that could be completed by February 2011, and we are pleased to report that 98
percent of the projects are expected to be completed by that mark, as intended by
Congress. Finally, these projects generated a significant number of jobs. Based on
recipient reporting, we understand these efforts contributed to the employment of more
than 12,000 people.

While we appreciate the draft report’s recognition of FAA’s accomplishments in this
important initiative, we differ with the elements of the report’s presentation and analysis.

34
     See the Departmental Response (August 7, 2009) to OIG ARRA Advisory on “DOT Actions to Ensure Effective
     Project Selection and Oversight of Airport Improvement Program Grants Pursuant to the Recovery Act.” A full
     copy of the response can be found here: http://www.dot.gov/recovery/docs/ARRAAdvisoryAIPresponse.pdf


Appendix. Agency Comments
                                                                                                                 26

First, we do not agree with the report’s elevation of executive branch guidance to the
stature of statutory requirements. This elevation of guidance and policy considerations to
a programmatic requirement leads the OIG analysis to place undue emphasis on a single
element of economic stimulus. In addition, the report could better recognize the
transparency of FAA’s program, with well-designed and time-tested programmatic
selection criteria and clear understanding and participation by stakeholders.

FAA Fulfilled Statutory Criteria and Complied with Executive Branch Guidance

Throughout the duration of this OIG review, the FAA has shared its understanding of the
complete set of statutory requirements relating to the Recovery Act, the application of the
AIP program within its context, and how guidance issued by the executive branch
factored into project selection. In what may be an effort to simplify its presentation, the
draft report makes a key error of defining “requirements as a collective term to refer to
Recovery Act requirements, Presidential Direction, Office of Management and Budget
(OMB), and FAA guidance related to Recovery Act implementation.” This error led the
OIG report to selectively elevate one element of those policy considerations to the stature
of a requirement.

Specifically, the OMB guidance called upon agencies implementing the Recovery Act to
take a number of equally weighted policy goals into account, to the extent permitted by
law and practicable, when determining how best to use Recovery Act funds.35 The
guidance called upon agencies to develop transparent, merit-based selection criteria that
will guide their use of Recovery Act funds. The guidance continues that agencies should
ensure that the funding furthers the job creation, economic recovery, and other purposes
of the Recovery Act. More specifically, the guidance indicates that these merit-based
selection criteria shall to the greatest extent possible support funding for projects that: (i)
deliver programmatic results; (ii) achieve economic stimulus; (iii) achieve long term
public benefits; and (iv) satisfy the Recovery Act’s transparency and accountability
objectives. FAA has described through the course of the OIG’s review, how the AIP
programmatic criteria fulfill these policy objectives.

FAA’s implementation of the AIP with regard to the Recovery Act was fully consistent
with statutory requirements and executive branch guidance. FAA demonstrated that AIP
project selections are in accord with these key elements of the guidance. However, by
equating a single element of the policy guidance describing aspects of achieving
economic stimulus with a “requirement” to optimize economic activity, the OIG report
elevates it out of context with the overall policy guidance and also significantly
overstates its relevance to overall program implementation. Further, the OIG’s report,
which faults FAA in this area for not considering economic factors or the results of
economic studies in prioritizing projects, is without discernable basis. FAA’s existing
and long-standing project prioritization implicitly factors economics into project selection
criteria, consistent with subchapter 1 of chapter 471 and subchapter 1 of chapter 475 of

35
      Office of Management Memorandum, Updated Implementing Guidance for the American Recovery and
     Reinvestment Act of 2009, April 3, 2009, question 1.6 at 4 (What other policy goals should an agency consider in
     determining how best to use Recovery Act funds in order to achieve the Act’s objectives?).


Appendix. Agency Comments
                                                                                          27

title 49, United States Code (USC)—the FAA’s authorizing legislation—as required by
the Recovery Act legislation. However, neither data nor tools exist that would enable the
level of economic impact consideration that OIG suggests to be applied to the funding of
individual airport projects or facilities, such as the addition of runways, taxiways, lights,
or aprons. Of greater importance, such data or tools are unnecessary because such
requirements are based on established regulations, published Advisory Circulars or
statutory requirements.

FAA Recovery Act Project Selection Was Transparent

As required by statute, the FAA’s project selection process followed the established
discretionary grant process in use for over a decade, as described and published in FAA
Order 5100.39A, “Airports Capital Improvement Plan,” available on the FAA website.
The FAA’s long-established and widely available policies and processes for managing
the National Plan of Integrated Airport Systems (NPIAS), the Airports Capital
Improvement Plan (ACIP) and associated processes are well-known to the aviation
industry and readily available for public review, and were developed specifically to
advance the purposes called for in the AIP legislation.

As such, Congress, airport sponsors and others in the air transportation industry are fully
cognizant of the decision-making process used by FAA. To help the public and airport
sponsors understand the Recovery Act specific guidelines, including Recovery Act
project selection, FAA also put the Recovery Act specific guidelines on its web site.
Additionally, the National Priority Rating (NPR) numbers for the Recovery Act projects
have also been released to the public. In seeking the strongest possible projects for the
use of Recovery Act funds, FAA raised the threshold NPR score from 41 (which has been
the threshold for the last several years) to 62. This did not mean that FAA could not or
would not fund projects with NPR levels below the threshold. It simply established a
higher threshold, below which special documentation would be required before FAA
would approve a grant.

Fully 85 percent of FAA’s AIP Recovery Act projects had a NPR of 62 or higher,
representing more than 80 percent of total funding. Of these, 9 percent were for
passenger terminal projects at primary non-hub airports with an NPR equivalent to 62 by
virtue of their special emphasis status. The remaining 15 percent of total Recovery Act
AIP projects were justified projects with NPR under 62, including new airport
construction, safety and various other projects. All but three of these Recovery Act
projects had an NPR of 41 or higher, the level normally used in the Discretionary grant
program for projects not requiring supplemental justification. Each of these three
projects was in economically disadvantaged Native Alaskan or Native American
communities. All three of these projects required and received additional documentation
of their justification.




Appendix. Agency Comments
                                                                                            28

Project Selections Deliver Programmatic Results and Long Term Public Benefit

FAA-funded Recovery Act projects are achieving program results. Whether they
rehabilitate runways and taxiways; upgrade airport safety by removing obstructions and
placing runway incursion markings; or enhance security, the net results are long-term,
lasting improvements to the nation’s system of airports. The Recovery Act was intended
as an economic stimulus law with broad benefits, which the FAA has achieved through
the number of jobs created/funded, program results accomplished, and public benefit of
usable air transportation infrastructure projects completed on time and within budget.

FAA-funded Recovery Act projects also offer long-term public benefits. Under the
Recovery Act, FAA funded 246 runway, taxiway, and apron reconstruction and
rehabilitation projects that will extend the useful life of those facilities by up to 20 years.
Similarly, 23 lighting systems and 8 fire and rescue buildings will have a useful life of at
least 20 years. The 11 Airport Firefighting and Rescue vehicles purchased with Recovery
Act funds are expected to last at least 10 years.

FAA is responsible for the national system of airports, not just large airports. The
discretionary grant process recognizes the importance of this diverse system of airports,
and therefore includes both large and small airports fulfilling a variety of functions
critical to economic activity. In light of this, and the Recovery Act’s direction to
supplement but not supplant, the relevance of the draft report’s discussion of funding for
a number of projects at small airports is not clear. These projects were in accord with all
applicable requirements. Every airport project that the FAA funded with Recovery Act
resources was already in the queue for eventual implementation. The Recovery Act
resources enabled the FAA to accelerate these projects, which fulfilled the statutory
requirements, complied with executive branch guidance, and provided the public with
long term transportation benefits within the context of a diverse system of integrated
airports, as enumerated in statute.

FAA Recovery Act geographic distribution considerations, accelerated time lines and
award amount caps were useful tools to assist FAA in its efforts to ensure that
communities served by airports throughout the entire nation benefitted from FAA AIP
funding under the Recovery Act. FAA does not agree that the use of these tools limited
FAA’s ability to optimize economic activity or select projects worthy of Recovery Act
funding.

Conclusion

FAA was effective in achieving significant accomplishments pursuant to the Recovery
Act. The agency complied with all statutory requirements in selecting projects under the
Act and was in accord with the guidance enumerated by the executive branch. FAA’s
project selection was also accomplished in a manner that sought to ensure communities
across the nation benefitted from these investments in transportation infrastructure.
FAA’s efforts results in 372 airport projects, which are now 84 percent complete. We
anticipate that these projects will be 98 percent complete by the Recovery Act’s 2-year



Appendix. Agency Comments
                                                                                            29

mark. Based on recipient reporting, these efforts contributed to the employment of more
than 12,000 people.

Recommendations and Responses

Recommendation 1: Increase transparency by posting on its Recovery Act website
specific justifications for lower scoring projects (including special emphasis).
Justification should include a description of the actual or anticipated economic activity
derived from each project.

FAA Response: The FAA concurs. To increase transparency, the FAA will post on its
Recovery Act website additional information on project selection. The FAA will post
information on the special focus areas and why these projects were funded as equivalent
to those with an NPR score of 62. Additionally FAA will explain the projects that were
below a 62 NPR score, but met the normal discretionary grant process requirement of a
41 NPR score and above. For the three projects below 41 NPR FAA will share the
written justification as to why these projects were approved including data on the number
of jobs funded. FAA will include information regarding the economic expectations
behind the projects to the extent it is available. FAA anticipates completing this action
by May 31, 2011.

Recommendation 2: Increase transparency of its normal AIP process by requiring public
reporting of actual as well as estimated grant amounts.

FAA Response: FAA concurs that posting grant amounts as issued is beneficial to the
AIP process and will incorporate this change for the FY 2011 grant cycle.

Recommendation 3: Comply with OMB guidance by (a) ensuring each ADO applies
sufficient levels of oversight to Recovery Act grantees, particularly those which FAA has
identified as being at higher risk, and (b) using the FY 2009 single audit reports to
identify high risk areas, consider additional monitoring or inspections, and expedite
resolution of reports findings for all Recovery Act grantees.

FAA Response: FAA is already in compliance with this recommendation. FAA is
already providing enhanced oversight to Recovery Act projects and is also reviewing all
single audit reports that we have received on our Recovery Act grantees. We will
continue to do this. When additional actions are warranted based on these reports, FAA
will take them expeditiously.




Appendix. Agency Comments
